<html>
<title> - TECH TALKS: HOW SBA ENTREPRENEURIAL DEVELOPMENT PROGRAMS HAVE EVOLVED WITH TECHNOLOGY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 TECH TALKS: HOW SBA ENTREPRENEURIAL DEVELOPMENT PROGRAMS HAVE EVOLVED 
                            WITH TECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON HEALTH AND TECHNOLOGY

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 14, 2017

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 115-036
              Available via the GPO Website: www.fdsys.gov
                   
                   
                               __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-772                     WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0562756a45667076716d6069752b666a682b">[email&#160;protected]</a>                    
                   
                   
                                      
                   
                   
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                          DON BACON, Nebraska
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                            
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Aumua Amata Coleman Radewagen...............................     1
Hon. Dwight Evans................................................     2

                               WITNESSES

Ms. Marsha Bailey, Founder and CEO, Women's Economic Ventures, 
  Santa Maria, CA, testifying on behalf of the Association of 
  Women's Business Centers.......................................     4
Mr. Scott Daugherty, State Director, North Carolina Small 
  Business Technology Development Centers, Raleigh, North 
  Carolina, testifying on behalf of America's SBDC...............     6
Ms. Bridget Weston Pollack, Vice President of Marketing & 
  Communications, SCORE Association, Herndon, VA.................     7
Mr. Brent Peacock, Director, Veterans Business Outreach Center, 
  Gulf Coast State College, Panama City, FL......................     9

                                APPENDIX

Prepared Statements:
    Ms. Marsha Bailey, Founder and CEO, Women's Economic 
      Ventures, Santa Maria, CA, testifying on behalf of the 
      Association of Women's Business Centers....................    21
    Mr. Scott Daugherty, State Director, North Carolina Small 
      Business Technology Development Centers, Raleigh, North 
      Carolina, testifying on behalf of America's SBDC...........    25
    Ms. Bridget Weston Pollack, Vice President of Marketing & 
      Communications, SCORE Association, Herndon, VA.............    31
    Mr. Brent Peacock, Director, Veterans Business Outreach 
      Center, Gulf Coast State College, Panama City, FL..........    46
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
 TECH TALKS: HOW SBA ENTREPRENEURIAL DEVELOPMENT PROGRAMS HAVE EVOLVED 
                            WITH TECHNOLOGY

                              ----------                              


                      THURSDAY, SEPTEMBER 14, 2017

                  House of Representatives,
               Committee on Small Business,
             Subcommittee on Health and Technology,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Aumua Amata 
Coleman Radewagen [chairman of the Subcommittee] presiding.
    Present: Representatives Chabot, Radewagen, Marshall, and 
Evans.
    Chairwoman RADEWAGEN. Talofa lava. I call today's 
Subcommittee on Health and Technology hearing to order.
    I would like to thank everyone for joining us today.
    Over the last two decades, we have seen technology change 
and evolve at an exponential rate. As technology has continued 
to advance, businesses of all sizes have adopted various forms 
of technology as a way to increase efficiency and decrease 
costs. And as this reliance on technology has become more 
prevalent, more and more small businesses have found that an 
increased use of these technological tools is necessary to 
allow their businesses to compete and succeed in the market. 
Now more than ever every company needs a website. Marketing 
campaigns have moved online. And the ability to accept credit 
or debit card payments, sometimes right on the spot, can make 
or break a business's bottom line.
    In a recent study, 80 percent of small businesses recognize 
this increased reliance on technology as a way of allowing 
their businesses to succeed, but they also reported that they 
were concerned about being able to afford and keep up with 
evolving technologies.
    Today, we will look at how the Small Business 
Administration's Entrepreneurial Development programs are 
serving as a resource to help businesses, small businesses, 
develop and advance alongside this new technology. The SBA's 
Entrepreneurial Development programs include the Service Corps 
of Retired Executives, or SCORE, small business development 
centers, women's business centers, and veterans business 
outreach centers. Each of the programs offers training and 
counseling to both aspiring entrepreneurs and existing small 
business owners on how to start, grow, and compete in the 
market.
    In order to fulfill this mission, each of these 
entrepreneurial development programs has adapted its training 
and counseling programs to reflect the increased need their 
small business clients have for technology-based training and 
counseling. Given the large number of training locations and 
clients these programs serve, this type of program adjustment 
is no small task. In total, the entrepreneurial development 
programs have over 1,000 locations across the United States, 
including one in my home territory of American Samoa. They also 
have collectively trained more than 700,000 clients and advised 
or mentored more than 350,000 clients in fiscal year 2016 
alone.
    I look forward to hearing from each of our witnesses on the 
progress they have made and challenges their programs continue 
to face as they adapt their training and counseling curricula.
    I now yield to Ranking Member Evans for his opening 
statement.
    Mr. EVANS. Good morning. And thank you, Madam Chairperson.
    The SBA administrates a portfolio of entrepreneurship 
development programs, including Small Business Development 
Centers, Women's Business Centers, the Service Corps of Retired 
Executives, or SCORE, and Veterans Business Outreach Center 
programs. These initiatives provide an aspiring entrepreneur 
and existing businesses with invaluable counseling, training 
and technical assistance, and mentorship.
    Whether it is creating a business plan, navigating the 
procurement process, marketing a new product, or identifying 
networking opportunities, the SBA entrepreneurship development 
programs provide an array of services to help small businesses 
navigate regulatory obstacles, grow, thrive. And most 
importantly, many of these services are easily accessible 
online.
    Technology has not only changed how we communicate, but 
also how businesses conduct it. It should come as no surprise 
that small firms are some of the savviest users of technology. 
They have found innovative ways to access untapped markets 
through low-cost voice and video conferencing. And many small 
businesses are utilizing social media to interact with 
consumers and markets themselves.
    The resources they use also change as technology does. The 
SBA entrepreneurship development services must be agile enough 
to adapt to new technology, but also assist small businesses in 
their adoption efforts. While digital outreach and training is 
just one piece of that puzzle, it is one of the most important 
ones.
    The SBA programs are key to helping small business owners 
remain competitive in a global market. It is vital that 
training and counseling programs reflect the marketing increase 
reliance on technology.
    All four of the entrepreneurship development programs have 
already undertaken efforts to connect to their clients online 
by offering distance learning, forums, and personalized online 
assistance. Yet challenges remain.
    It is critical that as we consider ways to legislatively 
strengthen SBA entrepreneurship development programs, we also 
do it with technology in mind. We must not just look at the 
effect of online knowledge share between resource partners' 
internally and external networks. This Committee should also 
acknowledge the greater burdens prohibiting the use of 
technology by centers.
    One such challenge is a broad-based infrastructure that 
reaches everyone. Without investment in our infrastructure, it 
is inevitable that small firms in rural areas will fall behind 
because they lack access to the SBA resources. Poorly connected 
hurts the economic development programs and the businesses.
    We must also look towards the development of a 
cybersecurity network that protects small employers trying to 
take advantage of digital communications and markets. It also 
is to protect the information conducted by economic development 
centers.
    We can no longer afford to be complacent with security. 
That is why I have cosponsored H.R. 3170, the Small Business 
Development Center Cyber Training Act of 2017, to provide 
resources and tactics to assist in planning for cybersecurity 
and defending against cyber risks and cyber attacks.
    Today's hearing will focus on the efforts within each of 
the SBA programs regarding digital training and outreach. It is 
also giving us the chance to hear about the challenges they 
face in developing their network and assisting small businesses 
adapt to rapidly changing technology.
    I look forward to the witnesses' insight and thank you for 
being here today.
    As you know, Madam Chair, I am sitting in for Ranking 
Member Lawson because of the Florida situation that he is in 
down there.
    Chairwoman RADEWAGEN. And, yes, he is in our thoughts and 
prayers. Thank you, Mr. Evans.
    If committee members have an opening statement prepared, I 
ask that they be submitted for the record.
    I would like to take a moment to explain the timing lights 
for you. You will each have 5 minutes to deliver your 
testimony. The light will start out as green. When you have 1 
minute remaining, the light will turn yellow. Finally, at the 
end of your 5 minutes, it will turn red. I ask that you try to 
adhere to that time limit.
    Our first witness is Ms. Marsha Bailey. Ms. Bailey is the 
founder and CEO of Women's Economic Ventures, a women's 
business center with locations in Santa Barbara, Santa Maria, 
and Ventura, California. In addition to her position with 
Women's Economic Ventures, Ms. Bailey also serves as the 
chairman of the executive committee at the Association of 
Women's Business Centers. Thank you for joining us today, Ms. 
Bailey.
    Our next witness is Mr. Scott Daugherty. Mr. Daugherty 
serves as a state director to the North Carolina Small Business 
Technology Development Centers, overseeing 14 SBTDC locations 
throughout the State. Mr. Daugherty also serves as the 
assistant vice chancellor for extension, engagement, and 
economic development at North Carolina State University. Thank 
you, Mr. Daugherty for being here today.
    Our next witness is Ms. Bridget Weston Pollack. Ms. Weston 
Pollack serves as the vice president of marketing and 
communications for the SCORE Association. With 12 years of 
marketing experience, including 8 years with the SCORE 
Association, Ms. Weston Pollack oversees the Association's 
branding, marketing, public relations, and communications 
efforts. Thank you for being here, Ms. Weston Pollack.
    I now yield to our ranking member for the introduction of 
the final witness.
    Mr. EVANS. Thank you again, Madam Chairperson. It is my 
pleasure to introduce Mr. Brenton Peacock, the director of the 
Florida Veterans Business Outreach Center. Mr. Peacock is a 
business analyst who brings two decades of counseling 
experience to apply for his responsibility as the veterans 
business counselor and program director, including extensive 
marketing experience, well-honed communication skills to assist 
clients in various areas of business. He was awarded the 
Regional Consultant of the Year for 2014, recipient of the SBA 
2014 VBOC of the year, regional impact CBA, certified business 
analyst, for the year 2012, CBA of the year 2009.
    Since 1990, Mr. Peacock has worked in counseling, 
education, and instruction for college-level radio television 
broadcasting at the Gulf Coast Community College and teaches 
the Boots to Business program at Florida military bases to 
retiring, separating military members. Mr. Peacock has a 
Bachelor of Science degree from the School of Communications 
and Business at Florida State University and is currently a 
graduate student at the American Military University School of 
Business. Welcome, Mr. Peacock.
    Chairwoman RADEWAGEN. With that, Ms. Bailey, you are 
recognized for 5 minutes. You may begin.

STATEMENTS OF MARSHA BAILEY, FOUNDER AND CEO, WOMEN'S ECONOMIC 
VENTURES; SCOTT DAUGHERTY, STATE DIRECTOR, NORTH CAROLINA SMALL 
    BUSINESS TECHNOLOGY DEVELOPMENT CENTERS; BRIDGET WESTON 
POLLACK, VICE PRESIDENT OF MARKETING AND COMMUNICATIONS, SCORE 
  ASSOCIATION; AND BRENT PEACOCK, DIRECTOR, VETERANS BUSINESS 
           OUTREACH CENTER, GULF COAST STATE COLLEGE

                   STATEMENT OF MARSHA BAILEY

    Ms. BAILEY. Good morning, Chairwoman Radewagen, Ranking 
Member Evans, and distinguished members of the Subcommittee. My 
name is Marsha Bailey, and I am the chair of the Association of 
Women's Business Centers and the founder and CEO of Women's 
Economic Ventures, or WEV, a women's business center in 
California.
    AWBC supports the network of WBCs by providing mentoring 
and programming to improve services to women entrepreneurs. In 
fact, AWBC's annual leadership conference took place this week 
in Alexandria.
    The WBC program is stronger than ever, serving 145,000 
entrepreneurs last year, creating 17,000 new businesses and 
nearly 25,000 jobs. While not the focus of today's testimony, 
the AWBC is grateful to the Committee for advancing legislation 
to modernize the WBC program and for your continued support of 
Federal funding for women entrepreneurs.
    WBCs have worked to leverage advances in technology to 
expand our reach and ensure our entrepreneurs are prepared for 
a 21st century economy. WBCs view technology from three 
perspectives: to enhance and promote our services, to educate 
entrepreneurs on how to use technology to manage and grow their 
businesses, and to operate our centers more effectively and 
efficiently.
    I want to stress that despite technology's capacity to 
provide options for distance learning, our clients 
overwhelmingly prefer in-person training because of the 
accountability, the camaraderie, and the support systems that 
are created in the classroom. And while business counseling can 
be delivered via Skype, it is more likely to be effective and 
productive if a relationship is first established between a 
business adviser and a client in person.
    Technology allows our programs to reach those who may not 
otherwise be able to utilize in-person services. Many WBCs 
serve large regions, even entire States out of one center. 
Webinars and distance learning can fill a gap for rural areas 
where clients may live hundreds of miles away from a center. 
However, limited access to broadband in rural areas often 
limits the viability of such programs.
    WBCs have come up with some innovative solutions to this 
problem. The WBC at REI Oklahoma established a mobile computer 
lab to provide QuickBooks training to clients across the State. 
Other WBCs have established stationary labs to help socially 
and economically disadvantaged women entrepreneurs bridge the 
digital divide.
    WBCs use technology to expand our program's reach, but we 
also teach entrepreneurs how to use technology in their 
businesses. At WEV we bring subject matter experts into our 
classrooms to ensure that clients have access to the most up-
to-date information, and we revise our curriculum every 2 years 
to keep up with the rapidly changing technology landscape. We 
have enhanced our in-person training programs by creating 
online assignments and tools in forming study and support 
groups through Facebook. We support and promote clients by 
posting their business milestones on our own social media 
pages.
    At the national level, AWBC has partnerships with Intuit, 
Constant Contact, and Mastercard to provide WBCs with free 
access to software and training content. Technology plays an 
essential role in WBC operations. CRM programs like Salesforce 
simplify and streamline data collection and client 
communication. Nearly half of the WBCs, mine included, use 
VistaShare's Outcome Tracker, a client database which captures 
intake and outcomes data. The program enables entrepreneurs to 
request services and access resources directly through a 
program portal. Business advisers can enter information into 
the database to document the services each client receives.
    Many WBCs are direct lenders, addressing the gap in women's 
access to capital. Several of us use online applications and 
underwriting tools, which give us more time to focus on 
ensuring that our borrowers are loan ready.
    Rapidly changing technology requires small business owners 
to constantly learn new skills to remain competitive. Women's 
business centers have often been leaders and innovators in 
adopting new technology to better serve the entrepreneurs who 
rely on us.
    Virtual access to services, technology training for 
business owners, and streamlining our administrative systems 
are three ways the WBC program has evolved with technology. And 
while technology provides many avenues to enhance our programs, 
I must stress that it is our people, their talent, their 
commitment, and their knowledge that drive the success of our 
programs and our small businesses. That combination of 
technology and talent will enable the WBC program to serve the 
unique needs of women entrepreneurs for years to come.
    Thank you for inviting me to testify today, and I would be 
happy to answer any questions.
    Chairwoman RADEWAGEN. Thank you, Ms. Bailey, for your 
testimony.
    And now I would like to welcome Chairman Chabot.
    Mr. Daugherty, you are now recognized for 5 minutes.

                  STATEMENT OF SCOTT DAUGHERTY

    Mr. DAUGHERTY. Thank you. I thank the chair and members who 
are here with us today. I am pleased to be here on behalf of my 
SBTDC, but also on behalf of our brothers and sisters in the 
SBDC network nationwide.
    The SBTDC was the first T accredited in organized state. 
There are now a third of the SBDCs that have become T 
accredited. We work with a whole range of companies from small 
startups to more mature companies.
    It is clear that there are technology adoption trends in 
this country that are moving at almost light speed. And it is 
tough for smaller companies to keep up. They have got a lot of 
concerns. They are concerned about costs. They are concerned 
about security. They are concerned about, how do we understand 
this and how does it make our business work.
    That is where service providers like the SBDCs and our 
colleagues can be real important: As the facilitator and 
communicator to make decision-making a little bit easier for 
our clients to look at the best options. The big survey out, 
the four levels of rating in the survey, from basic level of 
use of technology to very advanced level.
    This is a classic example of what a website looks like at a 
basic level. It is essentially a business card. There is no 
interactive capability whatsoever. That is fine for somebody to 
get a telephone number and maybe an email, but it is 
inadequate. As you go down the chain, for greater utilization 
of technology in the operations of your business, a couple of 
things happen. Those are the businesses that are growing faster 
than everybody else in terms of customer count, sales count, 
and survivability. It is the pathway for the future for all of 
our small companies, and they have got to begin to move forward 
in that area.
    The variety of surveys, a couple of really telling points 
from all the surveys about adoption of technology is, number 
one, it is driven by customers. It is not driven by the 
business. You don't make the market; you are responding to it. 
And that is just very true. And it is not just a millennial 
phenomena with people hanging out in coffee shops and never 
getting off their phone and this that and the other. People are 
much more intensely engaged in utilization of the internet.
    So they are driving, and they have expectations that their 
businesses will be available to online, and that includes being 
able to pay online. A very high percentage of people are 
comfortable paying online for goods and services. There are 
security concerns now arising, and very publicly because of the 
Equifax phenomena, which is pretty devastating. So online 
payments, online lending is becoming a bigger and bigger issue, 
and it is a concern I would raise with you.
    I think the bottom line to it all is that technology is 
moving at a much more rapidly increasing pace. Costs are coming 
down, but it does mean that there will be continual change in 
that marketplace. It is not like my corner restaurant that 
still has the 1920 cash register that they ring up, it has got 
brass on it, it is cute, but that is the age we live in now, 
and all of our businesses are going to have to adapt.
    As our SBDC has begun a couple of years ago, we are 
inquiring at the intake, what are your technology capabilities, 
what do you have, what have you looked at, what should you be 
thinking about in the future. And it gives us something to 
track now with clients over a period of years.
    I would also say there are three issues for you to be 
concerned with. One, we need to make better utilization of 
these networks to deliver the message required to properly 
train our business clients on the opportunities and the 
pathways to successful adoption of technology. Secondly, we 
need to begin to pay attention to online lending. It is easy, 
it is simple, it is very expensive. It is not unusual to see 25 
percent interest rate over 4 months. And finally, there is just 
a lot of uncertainty about cybersecurity, and somebody is going 
to have to take the lead, and I happen to think it might have 
to be Congress because of the breadth of the issues.
    So thank you very much, and I am pleased to be here, and I 
am happy to answer questions.
    Chairwoman RADEWAGEN. Thank you for your testimony, Mr. 
Daugherty.
    Ms. Weston Pollack, you are now recognized for 5 minutes.

              STATEMENT OF BRIDGET WESTON POLLACK

    Ms. WESTON POLLACK. Good morning, Chairman Radewagen, 
Congressman Evans, and members of the Small Business 
Subcommittee on Health and Technology. My name is Bridget 
Weston Pollack, and I am the vice president of marketing and 
communications for SCORE. Thank you for the opportunity to 
offer testimony on how technology is enhancing SCORE.
    First, I want to thank you for 53 years of support for 
SCORE. I also want to thank the United States Small Business 
Administration for their continued support.
    One of SCORE's officially stated values is that clients 
matter. Our clients' success is our success. We are proud to 
report that, in fiscal year 2016, SCORE helped its clients to 
create 54,000 new businesses and add 79,000 new jobs. 
Technology is a major contributing factor to this success. At 
SCORE, we have harnessed technology to serve entrepreneurs 
wherever they are and however they want to be served.
    By paying careful attention to the feedback and data 
collected from these clients and from the volunteers who serve 
them, we continuously streamline our operations and improve our 
effectiveness. SCORE is utilizing technology to better serve 
and meet the needs of American small business owners. Strategic 
use of technology ensures that we remain relevant to future 
clients who expect us to be always open and always on.
    I want to tell you what small businesses owners are telling 
us they need, the true voice of the customer. A survey by SCORE 
showed that a quarter of small business owners ranked 
technology advice as most helpful to their business success. 
SCORE is well positioned to meet these needs with more than 
1,300 of our mentors having specific expertise in technology, a 
wealth of resources on the SCORE website dedicated to this 
topic, and additional local support from partners like SBDCs 
and other private sector organizations.
    SCORE's web strategy now makes it even easier for our 
clients to connect with our mentors and resources, meeting them 
wherever they are and however they want to be served. Our 
website gives clients the option of browsing our pool of 
mentors, filtering them by key words, area of expertise, 
industry, language, and location. These mentor profiles allow 
clients to select the volunteers whose experience they feel 
most benefits them.
    SCORE has also developed a mentoring widget that provides 
quick access to SCORE mentoring and services on third-party 
sites. More than a dozen partners now use this, including the 
National Urban League, and users can connect with a SCORE 
mentor without ever having to leave that partner's site.
    Our video mentoring program connects volunteers with 
entrepreneurs in remote locations or whose busy schedules 
require flexibility using video conferencing technology such as 
Google Hangouts and Skype. Our data shows that video mentoring 
clients have the highest level of engagement, rating a 4.3 on a 
5-point scale, and that is compared to a 4.15 for our face-to-
face mentoring.
    SCORE's robust distance learning program reaches audience 
members who cannot easily attend a local workshop or who prefer 
to learn virtually. Our live educational workshops average more 
than 500 attendees each week. Additionally, we offer more than 
350 recorded webinars that are available on demand any time on 
our website. In total, these workshops drew 120,000 attendees 
last year, and we are on track to surpass that by more than 25 
percent this year.
    We also produced three virtual conferences during the past 
year and a half where clients remotely participated in an 
online environment with the look and feel of an in-person 
conference. The most recent in June of 2017 drew 3,200 live 
attendees, and 96.5 percent of those attendees told us the 
conference helped them.
    SCORE used similar technology to host our inaugural 
volunteer virtual conference with 72 percent of SCORE chapters 
taking advantage of this training.
    Online awareness efforts are critical to fulfilling our 
mission, and we aim to centralize those for our chapters 
wherever possible. SCORE now provides websites for each 
chapter, which has improved chapter website traffic by more 
than 29 percent this year. SCORE also centralized social media 
for a third of our chapters, with those participating chapters 
seeing an 8.9 percent increase in traffic, outperforming 
nonparticipating chapters.
    SCORE has successfully integrated technology into every 
aspect of our business practices, centralizing and simplifying 
administrative tasks. A variety of metrics are available to 
help chapters and volunteers in realtime so they can monitor 
their performance and serve clients more effectively.
    SCORE exists to help entrepreneurs achieve their dreams of 
small business success, in turn strengthening the American 
economy through business formation and job creation. Technology 
enables SCORE to be always open and always on, meeting the 
needs of our clients today and in the future and serving them 
when and how they want to be served.
    I would be pleased to answer any questions you may have. 
Thank you again for your attention and for this opportunity to 
testify.
    Chairwoman RADEWAGEN. Thank you, Ms. Weston Pollack, for 
your testimony.
    Mr. Peacock, you are now recognized for 5 minutes.

                   STATEMENT OF BRENT PEACOCK

    Mr. PEACOCK. Good morning. I am Brent Peacock, the director 
of the Veterans Business Outreach Center at Gulf Coast State 
College serving the State of Florida, which is one of the 
largest concentrations of military bases and veterans in the 
U.S.
    The Veterans Business Outreach Centers, or VBOCs, is the 
Small Business Administration's program that provides business 
counseling, training, and SBA resource partner referrals to 
active duty servicemembers, National Guard and Reserve 
personnel, veterans, and military spouses who are interested in 
starting or growing a small business.
    The SBA funds 20 VBOC centers across the U.S. and in 
Hawaii. We appreciate Representative Al Lawson's invitation 
today to introduce you to the VBOC's mission and how we use 
technology to educate our core clients in the basics and best 
practices of business ownership and to help them succeed in 
today's business environment. Please review the collateral I 
have provided for VBOC impact.
    VBOC's primary mission is to conduct entrepreneurial 
development training dealing specifically with key issues of 
self-employment, meaning owning and succeeding in a business of 
their own. Usually, servicemembers meet the VBOC during their 
transition from military service in a training program called 
Boots to Business. This is a 2-day training workshop to 
introduce our target audience, transitioning military, spouses, 
and veterans, to the idea of entrepreneurship.
    Our second core mission is business counseling. Our 
business counselors and SBA resource partners, including small 
business development centers, SCORE, and the women's business 
center, help our clients in assessing their entrepreneurial 
needs and requirements. We help them validate business concepts 
through extensive market research, set up a viable business 
plan to be executed using a variety of online tools and SBA 
resources, help them prepare loan packages as needed, connect 
them with outside resources like lenders to launch and grow a 
successful business of their own in the civilian world.
    Research is an essential element of the process, and VBOCs 
provide more than just industry specific data. Our clients are 
often high tech warriors. They are familiar with state-of-the-
art technology, weapons systems and the like. But what they 
don't know is how to deploy those skills in a civilian business 
arena. Their business concept may be what they learned in 
military service, but oftentimes, servicemembers choose to go 
into a completely unrelated field turning their swords into 
proverbial plow shares.
    But no matter what their choice, VBOCs are there to guide 
them through this entrepreneurial maze from understanding the 
ownership options, direct ownership or a franchise, to 
understanding who their customers will be, what options they 
have in organizing and running their businesses, getting 
funded, and becoming operational and competitive and cash flow 
positive. This is our mission.
    Your interest is in the role technology and online business 
tools play in today's business arena. For us, it begins with 
the delivery of training and business counseling. VBOCs, 
working with other SBA resource partners, can target 
entrepreneurial training projects and counseling sessions 
tailored exclusively to address the needs and concerns of the 
veteran entrepreneur with a wealth of online tools.
    VBOCs help our clients identify their plan with feasibility 
studies, business plan assistance, reviews of financial 
statements, and assisting with strategic development as with 
such needs as identifying markets. From franchising to 
international marketing, from electronic sales with Square and 
small business recordkeeping like QuickBooks, to the nuances of 
international trade and government contracting, all of these 
resources are now online tools we can use every day to help 
your constituents and our clients.
    You know, not long ago, we were limited to face-to-face 
meetings and hard cover books. But now, thanks to the rapid 
pace of technology and online learning, we can Skype, use 
webinars, and employ online resources to help our clients in a 
day. Technology has made a significant impact on our 
productivity and effectiveness as a government-funded entity.
    The SBA Offices of Veteran Business Development maintain 
online access to ever-changing materials. For deployed 
servicemembers who don't have access to military installation, 
the Department of Defense provides Joint Knowledge Online, or 
JKO, for continuous career development and joint knowledge 
readiness for personnel, including combat commands, combat 
support agencies abroad. Without these, our servicemembers may 
be left behind.
    Websites are also critical no-cost resources for our 
civilian and military clients. SBA.gov is a website and 
learning tool with a wealth of information for all aspects of 
business from start to growth. It is well organized, easy to 
understand, and it is a learning center with over 50 topics 
anyone can view as often as they like. Like Vil, who, when she 
returns home from Afghanistan, will open that coffee shop and 
bakery, and spouses like Torrance, who are keeping the home 
fires burning and running a home-based business of their own. 
Both need online tools like the SBA website and ours, VBOC.org, 
for resources they need to move ahead, websites every business 
owner will need to get their business off the ground, from the 
IRS to domains for the Secretary of State's offices and local 
resources. Having them available electronically can help our 
constituents, and it saves operational costs.
    Market research is critical, and assessing feasibility of 
one's idea and creating a business plan is viable today. The 
days of pouring over books in the library are long gone. 
Today's warriors expect access to data from their smartphone 
and tablets. The days of being tethered to the restraints of 
libraries and outdated retails are over.
    Like many small businesses and government agencies from the 
local to the Federal, we use technology to manage operations, 
track activities, and use this data to expand our reach and 
create our efficacy. Our organization uses an electronic client 
management system called Neoserra. Through this system, we can 
track performance and communicate with our clients, as well as 
allow them to set up their online training.
    In VBOC 2.0, the SBA's Office of Veteran Business 
Development promotes two new online business platforms: 
LivePlan and GrowthWheel. The goal is to facilitate the flow of 
information and track the assistance a client can receive from 
multiple SBA resources. Not only can we counsel the client in 
realtime, we can share and cocounsel and track clients with our 
SBA resource partners. For example, if a client was referred by 
a VBOC to a women's business center, this platform will allow 
us to track the referral and work together seamlessly to help 
that client. Then if the same client was referred to a lender 
and that referral resulted in a loan, we can track that too.
    I could continue, but you understand the importance of 
technology and online communication and how it is essential for 
elected officials like you and government agencies like ours to 
embrace it. Information and business now move at the speed of 
light, and technology that our Nation has helped pioneer and 
our servicemembers have helped to defend in the past, future, 
and the present will help us as entrepreneurs and warriors who 
are converting to entrepreneurs.
    I thank you for this opportunity and welcome any questions.
    Chairwoman RADEWAGEN. Thank you, Mr. Peacock.
    I now recognize myself for 5 minutes of questions.
    There is a small business development center located at the 
American Samoa Community College; however, there are no women's 
business centers, SCORE chapter locations, or veterans business 
outreach centers within the territories. How are each of your 
programs using technology to reach clients who are located in 
areas without brick and mortar training locations? Ms. Bailey?
    Ms. BAILEY. So I will say I believe we did have a women's 
business center in American Samoa at one point. And I want to 
say that one of the challenges for some of the women's business 
centers has been this issue of long-term sustainability, and it 
is one of the issues that the AWBC is directly addressing 
through a recent grant we got from JPMorgan Chase where we are 
studying best practices in organizational management and 
development in program delivery so that we can help those 
organizations be more sustainable in the long term. I am not 
personally familiar with what programs might be available 
online to clients in American Samoa.
    Chairwoman RADEWAGEN. Thank you.
    Mr. Daugherty?
    Mr. DAUGHERTY. Yes. Thank you. We make very active use of 
interactive video capabilities. They are in our offices across 
the State, including in very rural areas of North Carolina. We 
actually are also finalizing an arrangement with cooperative 
extension, which in our State has 100 offices, one in each 
county. Very accessible to utilize the capabilities of that 
much more fully.
    It is mostly used, I might say, not for the internal intake 
with a client, but for the relationships with specialists on 
staff in procurement, in technology, commercialization, those 
kinds of areas, where we have more limited staff, but we can 
make very good use out of technology to interact with clients.
    Chairwoman RADEWAGEN. Ms. Weston Pollack?
    Ms. WESTON POLLACK. Thank you for the question. Yes, SCORE 
does not have a physical presence in American Samoa, but we do 
feel that a number of our virtual resources can definitely fill 
a gap in the meantime. We have over 450 video mentors that are 
available through Google Hangouts and Skype. Thousands of our 
mentors also use email and phone, so that is another way that 
we can communicate across the Nation.
    With over 10,000 volunteers in this connected network, we 
do know that we have the ability to bring in our mentors and 
co-mentor or have a wealth of resources available to serve the 
people in American Samoa. We also have 350 online workshops 
that are available, and those have been highly successful. And 
we do have the thousands of resources on our website to help 
facilitate those discussions and get the people the answers 
that they need for whatever their business needs are.
    Chairwoman RADEWAGEN. Thank you.
    Mr. Peacock?
    Mr. PEACOCK. We provide the Boots to Business training to 
every military base, CONUS and no CONUS. And anywhere that 
there would be a military base, we have an actual physical 
presence. We cover Guam and Hawaii, and with technology, they 
have the access of being able to reach out to SBA websites and 
other resource partners to get training and consulting. But we 
would like to have a physical presence to cover every place.
    Chairwoman RADEWAGEN. Thank you. And as a followup, what 
type of marketing strategies are you using to ensure that 
people in areas without training locations near them know these 
programs are available?
    Ms. BAILEY. You know, I am glad you asked that. That was 
exactly what my next point was going to be. Many of the 
organizations have limited marketing budgets. And so if you are 
trying to provide services in an area where you don't have a 
physical presence, you lack that kind of word-of-mouth tool 
that is so important to so many centers.
    So many of us do, I think probably all of us use social 
media for marketing, but we also use, you know, when you have a 
physical location, especially trying to reach out to small 
businesses, the kinds of networking, in-person networking kinds 
of activities that we do are really invaluable to getting into 
that small business market.
    So I think probably, you know, in terms of cost 
effectiveness, it really is the online kind of marketing, but 
you have to know to target a community in order to be 
successful in that community. And, frankly, a lot of women's 
business centers just don't have the budgets to do that.
    Chairwoman RADEWAGEN. Mr. Daugherty?
    Mr. DAUGHERTY. I think there are three primary ways to get 
reach into the communities. Number one is, we are a 35-year old 
program, and we have relationships, in-depth relationships in 
communities, all 100 counties, chambers of commerce, regional 
economic development organizations. They have our number and 
email address memorized. They are a great convenor of small 
groups as we have topics we want to bring to attention. We 
publish a lot of things that are online and in print copy about 
issues of importance to small companies. Huge distributions in 
State business magazines and chamber of commerce publications 
all across the State. So it is a combination of print, online 
material, and personalized interaction.
    I might say that we have a tier system of counties. You 
don't want to be a Tier I county in our State. That means you 
are at the bottom in terms of economics, and regrettably, we 
have got two dozen of those. Those are high impact priority 
counties for us. Each center that serves that region better 
have a lot of clients in those counties, because that is where 
it really makes a difference, and we track it and score them.
    Chairwoman RADEWAGEN. Ms. Weston Pollack?
    Ms. WESTON POLLACK. Thank you for the question. I think 
there are really two main factors to helping get the word out 
about SCORE and have more people use our services. Online 
presence is critical. We need to be where our clients and 
potential clients are, and we do that through social media, 
through our web presence using a search engine optimization 
strategy. We have over 5 million visitors to our website, and 
that increases by at least 10 percent each year by adding 
content that people are looking for to help their businesses.
    We then push that out, of course, through social media, 
through limited advertising, and we really do focus on 
geotargeting for areas that we know can most benefit from these 
resources. Of course, partnerships are important as well. Like 
my colleagues at this table, we know that in order to reach 
those people, we need to form these partnerships and have a 
relationship.
    I mentioned our widget in our testimony, and what that does 
is allows partners to promote SCORE mentoring without having to 
really lift a finger and get people to mentoring more quickly. 
We just recently formed a partnership with the U.S. Department 
of Agriculture to reach rural, you know, entrepreneurs and 
farmers, and we look for more partnerships like that to spread 
the word to their audiences and people who can benefit from 
SCORE services. So we will continue to focus on that.
    Chairwoman RADEWAGEN. Mr. Peacock?
    Mr. PEACOCK. Well, as you know, veterans can be anywhere. 
And no matter where they are, we provide services to them and 
through the use of online media, specifically Facebook, where 
we do provide content every day. I notice that there are some 
visitors from the American Samoa islands, as well as everywhere 
else, that have access to contacting me, if they choose to, or 
just reading best practices provided by the SBA or somewhere 
else where I get content. So that makes me feel better that we 
are actually reaching out. And if someone were to call me from 
that particular area, I would help them, and I don't think my 
leadership would have any trouble with that.
    Chairwoman RADEWAGEN. Thank you.
    Now I have a question for Ms. Bailey. Nationally, 
throughout all WBCs, what are the most common training programs 
offered on technology, and how have these programs benefited 
WBC clients?
    Ms. BAILEY. So I think most of us integrate those programs, 
you know, into our core training programs. Several WBCs do 
provide specific training workshops. They tend to be a longer 
term training. My own program, our CORE training program, is a 
14-week, 54-hour business planning program. So there is a large 
section on technology about the, you know, importance of a 
website, social media presence, all the things that we have 
talked about.
    For our ongoing consulting program where we work with 
established businesses, this is continually part of their 
ongoing training, I would say. The representatives from SCORE 
stated their survey outcomes about the need for knowledge 
around technology, and that certainly is a big need. I would 
say the other biggest need that our clients have is really for 
continuing education on business finance.
    Chairwoman RADEWAGEN. Mr. Daugherty, throughout your 
testimony, you discuss the importance of small businesses 
embracing technology in order to remain competitive and succeed 
in the marketplace. What current training opportunities do 
SBDCs and SBTDCs offer to small businesses on the various uses 
and forms of technology they may need to be successful?
    Mr. DAUGHERTY. I have got a red light so--what we use is we 
use partner channels for outreach and educational programs. We 
are blessed by having a 58-community college system in our 
State. We have 100 counties, so a few counties are served by 
the college. They do enormous amounts of continuing education 
and training, and we have a couple of standard products focused 
on technology adoption, opportunities, and pitfalls that are 
routinely offered through those. Those are likely to be offered 
three or four times per quarter in each of the community 
colleges. It is a great way to get reach.
    And they are really a grassroots community-focused training 
resource. That is where the local mom-and-pop store is likely 
to go to get continuing education. They are not going to the 
university campus. So it gives us really good reach. And we are 
constantly monitoring with our own clients what is working for 
them so that we flavor the training opportunity with the 
experience of the users of the training.
    Chairwoman RADEWAGEN. I have got a question for Mr. Brent 
Peacock. In your testimony, you mentioned that an extensive 
technological background is common among your clients, as many 
of them have been trained in complex military systems. What 
strategies are VBOCs using to translate this knowledge and 
skill into beneficial business strategies?
    Mr. PEACOCK. Thank you. Oftentimes, the technology that 
they deploy are far more advanced than anything that we are 
using in the civilian marketplace. But to be able to help them 
to understand the need for technology in their business is 
important and how to kind of adapt that technology to business 
practices.
    One of the things that we find with working with military 
members, especially those who are newly separating, is trying 
to slow them down and get them to focus on understanding their 
market. And that kind of technology or that kind of 
understanding is based on technology to do research and find 
out who their customers really are and find out who their 
competition is.
    So as they come to us with great technological expertise, 
we are very fortunate that they understand systems, that they 
can do many things in combat that are technical, and so it is 
not like maybe it was before. You know that you have a 
technologically advanced clientele, and you try to meet them at 
that same level by meeting with them and speaking with them in 
a technologically advanced way.
    Chairwoman RADEWAGEN. And, Ms. Weston Pollack, your 
testimony references the SCORE core values, one of which is 
experience matters. How has volunteer experience benefited your 
clients with regard to mentoring on technology-related issues?
    Ms. WESTON POLLACK. Thank you for that question. We have 
over 10,000 volunteers that serve our clients throughout the 
country, and we are really proud of what we have looked at in 
terms of our performance and impact on the economy.
    One of the ways we measure how our volunteers are impacting 
our clients is our net promoter score. That measures how happy 
people are with our services and if they are willing to 
recommend score. Last year, in fiscal year 2016, SCORE's NPS 
was 82.26. And just for context sake, 50 is considered 
excellent and 70 is considered world class. So we see that our 
volunteers are providing a high-quality service to our clients.
    We do have a learning management system for our volunteers. 
They, like our clients, are interested in continuing education 
and learning and growing and staying on top of business trends. 
That system has 23 modules, and our volunteers do take 
advantage of that to make sure that they stay on top of the 
technology trend to be able to best inform and advise the 
clients that they see.
    Chairwoman RADEWAGEN. Thank you.
    Ms. Bailey, your testimony notes that WBCs usually share 
best practices related to training and counseling through the 
AWBC conference once a year. Are there any formal means of 
information sharing between centers outside of the annual 
conference? And as a followup, do you believe that formalized 
information sharing could benefit WBCs by minimizing 
duplication of efforts?
    Ms. BAILEY. Absolutely. I am going to address the second 
part first. One of the challenges with the WBC program is that 
every WBC is different. They really evolve to meet the unique 
needs of their own communities. And so as you can imagine, that 
makes it difficult to kind of standardize the kinds of 
trainings. Regardless of that, particularly for our new WBCs or 
new WBC directors, we find that there is just a real thirst for 
curriculum, for best practices around organizational 
management, standard operating procedures, board development, 
fundraising, all of those issues that are really critical to 
running a sustainable center.
    So we do have--we have a monthly newsletter in which we 
highlight best practices. And then we have, on our website, we 
have a resource area where we have, for instance, forms and 
documents and procedures that are free to our members to 
download. So, yeah, that is a critical part. And one of the 
things we are trying to accomplish through the grant that we 
have from JPMorgan Chase is a way to better share and replicate 
some of those best practices.
    Chairwoman RADEWAGEN. Okay. And, Mr. Daugherty, as the 
State director of the North Carolina SBTDC system, you oversee 
multiple training locations throughout the State. How are best 
practices or successful training strategies shared within your 
State? And as a followup, beyond the North Carolina SBTDC 
system, what type of information-sharing strategies do you use 
to work with other SBDCs?
    Mr. DAUGHERTY. Our SBTDC is a pretty integrated system. We 
are highly interactive. We have two to three major training 
activities a year for all professional staff. We have a 
professional development committee that monitors programs that 
have worked well from one recent center to another and 
recommend adoption of those and deployment throughout our 
system.
    I think a good example of cross-sharing of ideas among 
States is that we have a very active group of States in the 
southeast. The State directors and associates meet twice a 
year. It is not complaining about Washington. It is not 
complaining about our host. It is entirely focused on how do we 
do our job better? Who has got a great program? Who has got a 
great way of reaching clients and having an impact? And that 
has resulted in a lot of transfer of programmatic ideas from 
one State to the other.
    We have also looked at that as a platform for training of 
our own staffs regionally, certified economic development 
finance professional courses, very intense. You need to have 
multiple States in order to get a big enough class. That is a 
good example of pulling together regionally a group, and it has 
worked really well in terms of just cross-fertilization on a 
day-to-day basis with your colleagues.
    Chairwoman RADEWAGEN. Thank you.
    Ms. Weston Pollack, the SCORE Association's administrative 
use of technology is quite extensive. Your testimony lists the 
use of metrics collection software, a learning management 
system, and client relationship management software, amongst 
others. How has SCORE found these forms of technology 
beneficial both administratively and to clients?
    Ms. WESTON POLLACK. Well, thank you for the question. They 
are tremendously beneficial. One, it allows us to gather more 
feedback and data than we ever have before. Several years ago, 
we did make the decision to be data driven, and we knew that we 
needed to learn more from our clients to better serve them and 
help them have a better experience. So as we gather that data, 
we are able to be more nimble and agile and serve them, again, 
wherever they are and however they would like to be served.
    When we see that there is something in the data that is 
telling us they may not be as happy with our service, we can 
address it very quickly. As opposed to waiting and, you know, 
maybe hearing about it on Facebook or something like that, we 
can address it right away, and that is one of the great things 
of having this reporting.
    Our reporting can also dig down to the individual volunteer 
level, so we can see how engaged a volunteer is, how engaged 
they are with each of their clients, and then gather best 
practices from those mentors that are performing and help those 
who may need some extra training. And we do regularly use those 
to make sure that we are continuously improving our operations.
    Chairwoman RADEWAGEN. Thank you.
    Mr. Peacock, you spoke briefly about SBA's Office of 
Veterans Business Development Initiative, VBOC 2.0, which 
allows for increased flow of information between VBOCs and the 
other SBA ED programs to track client referrals. How is this 
system expected to work? Will all ED programs be required to 
participate? And what challenges, if any, do you anticipate 
with the implementation of this program, given its size and 
scope? And how are VBOCs actively working to mitigate these 
issues in advance?
    Mr. PEACOCK. We think that there really shouldn't be any 
problems. What it is going to allow us to do is to provide best 
practices with all of our resource partners and to allow 
sharing.
    One thing about VBOCs is we are centrally located. I cover 
the entire State of Florida. But if there is an SBDC in Orlando 
and a client is trying to buy a restaurant or something, the 
best practice is to find counseling that is local, because the 
best counseling is local. So maybe the SBDC or women's business 
center SCORE chapter might know of a realtor or a banker or 
somebody who knows local rules and laws, so we can refer to 
them and that way we can track all that together. As our main 
drive is to be there at the boots on the ground when that 
veteran is separating, to teach the Boots to Business program 
and also to share some of the counseling duties with our 
resource partner network and not to create something that is 
already being done, but to be able to share best practices with 
the other VBOCs and the other resource partners statewide.
    And the new platforms that we are introducing will allow 
that type of co-counseling, which I think is going to be really 
beneficial to tracking and keeping up with and assisting that 
client in the best way. And we have to remember, it really is 
all about that veteran, that military spouse, that active duty 
servicemember who wants to exit military service and be as 
productive in civilian life as he or she was in the military 
service. So by bringing in all the other resource partners, we 
are really helping them. And I think that is the key to what we 
are doing, and I think my colleagues will agree.
    Chairwoman RADEWAGEN. Okay. Thank you.
    Ms. Bailey, you discussed the importance of AWBC or WBC 
partnerships with outside companies such as Intuit or 
Mastercard as a critical way of adopting technology into 
training curricula. What does the process of establishing a 
partnership like this look like? And are these partnerships 
common among WBCs nationwide?
    Ms. BAILEY. So the partnerships that AWBC has created 
benefit all of our WBCs. So, for instance, with Intuit, they 
provide our WBCs with free licenses for QuickBooks and the 
training curriculum so that they can train their clients how to 
use QuickBooks. So it is a great benefit to all of the WBCs.
    Mastercard created webinars called Master Your Card. So it 
helps our clients, especially retail clients who need to look 
at how to accept credit cards, how to negotiate, you know, the 
best deals with merchant services and things to really kind of 
understand that whole process and the importance of it 
accepting credit.
    Constant Contact, again, they provide free email, bulk 
email services to all of our WBCs so that they can send out up 
to 10,000 free emails every month. So this is really important 
for the newsletters that each of our centers do on their own, 
as well as the other kinds of, you know, communications and 
program content that each center uses.
    So we are always looking for relationships that we can 
negotiate on behalf of all the WBCs, because as you can 
imagine, many WBCs don't have access to those resources, you 
know, in their area. So as the AWBC, if we can do that on their 
behalf, then that is a benefit to all. Some of them can also 
use some of those products, the value of some of those products 
to make some of their in kind match.
    Chairwoman RADEWAGEN. Mr. Daugherty, America's SBDC 
administers the peer-based national accreditation program for 
SBDCs on behalf of the Small Business Administration. Is there 
any aspect of this accreditation process that requires SBDCs to 
use technology administratively or to offer technological 
training to its clients?
    Mr. DAUGHERTY. Good question. Thank you. The accreditation 
process is an incredibly rich opportunity for SBDCs to 
continuously improve their operations. That is really the 
intent. National standards, expectations with respect to type 
and quality of services that are provided. And it is a peer-
driven process, so you go through review every 5 years with 
multiple team members looking at your operations against a set 
of standards. So it is not just coming in and saying, I don't 
like that, I do like this. But there are standards.
    What that process does is it oftentimes unearths really 
unique, interesting initiatives being tried in one State that 
need to be replicated in other States. And those get 
communicated first among the accreditation committee, which is 
quite a large number of States that participate. And it gives 
our association opportunities then to communicate about some of 
the rich findings that are unique in the accreditation review 
process. And it is a talking point for State directors. We are 
committed to that process, and the best way to benefit from it 
is learn from what other people are doing and adopt, steal, 
replicate programmatic activities. That is the American way.
    Chairwoman RADEWAGEN. Thank you.
    Ms. Weston Pollack, the SCORE Association website offers 
access to numerous live and recorded webinars in addition to 50 
courses on demand. What is the benefit to offering these online 
training opportunities? And what did the process of developing 
this digital training infrastructure look like?
    Ms. WESTON POLLACK. Thank you for that question. You know, 
it took us years to develop this, but I really do feel we have 
a high quality, best practice webinar program in place today. 
When we started in 2012, we were seeing only a few hundred 
attendees. And as I mentioned in my testimony, we now see over 
120,000 attendees who take advantage of these webinars.
    Some of the benefits to the clients are that many people 
today prefer to learn virtually. They are busy, especially 
business owners. They can't necessarily leave their business 
and attend a 3-hour workshop, but they can sit there at 1 a.m., 
when their brains are going, and take advantage of an on-demand 
webinar about a specific topic that they are interested in. So 
we do make sure that we cover all of those topics that they 
tell us they need. We survey after each webinar to ask them 
what other topics they would want, and then continue to hone 
our curriculum based on that feedback.
    We use mentors who have that expertise to deliver some of 
that content. We also have corporate partners in areas like 
Intuit or Mastercard that have expertise in those areas, and we 
ask them to be guest presenters. And then, of course, we use 
that as a program to cross-sell our mentoring services. And I 
am pleased to say that 28 percent of the people in general who 
attend a webinar then go and seek a mentor.
    So we really do see it as something to reach them, get them 
to start thinking about whatever it is to help their business, 
and then to go seek out a SCORE mentor or another person who 
can help them in their business.
    We share them out through email. We promote them on social 
media, and we do leverage our relationship with the SBA to 
promote our webinars as well to get this great reach. And, 
again, I am really pleased that those who do take advantage of 
our webinars are highly engaged. We do an annual survey, as I 
mentioned, and our mentoring clients see 4.15 to 4.3 
engagement, and our webinar numbers are pretty high up there as 
well.
    Chairwoman RADEWAGEN. And, Mr. Peacock, what are some 
examples of ways in which VBOCs have used webinars or a 
combination of online resources, in Skype or email, to 
successfully reach clients that are not geographically located 
near a center?
    Mr. PEACOCK. Thank you. We are allowed to use Skype or 
telephone or other technology to spend hours talking with 
clients. We have clients who are interested in government 
contracting, for instance, and I have a colleague who has an 
expertise basis in that. And I have seen him spend hours on 
either Skype or telephone just explaining the process of how to 
register in the system for award management, who to see, who 
not to see, how to identify your NAICS codes, and all these 
kinds of things like this. And he will be doing it for half a 
day. And that person might be in Tampa. And yet what they learn 
is as valuable as if they were sitting right in their office.
    I used to say a lot of times when I would go out and do 
workshops, you know, don't have to come and see me. Those days 
are over. I am not that much to look at, and our coffee is 
pretty good, but it is not worth your time to drive up there. I 
will spend the entire day on the phone with you, if that is 
what you need, or Skype, or through a series of emails back and 
forth. Oftentimes, I will have an opening telephone or Skype 
conversation to kind of introduce what they are looking for and 
how we can help them, and then I will give them an assignment. 
Email, this is what I want to you do before the 15th of next 
month. You know, let's say that they are buying a retail space, 
identify the price of it, have a business valuation done, and 
contact these three lenders. And then I will call you back.
    The next month. Okay. You have done that, let's start 
looking at what you have to do to be operational. Get up with 
the Department of Commerce, or whatever you need to do, to get 
the certifications and step them through. And after a while 
they will go, you know what, I am running a business. And it is 
kind of funny, because it is done in such incremental steps 
that you don't notice it. And it is the old take a bite of the 
elephant, one bite at a time, if you like eating elephants. And 
that is the best way to do it. One bite at a time so it is not 
so overwhelming.
    And one thing with veterans and military people is they do 
have the tendency to charge and take the hill right now. And 
often I would say, whoa, buddy, you can't do this by Thursday. 
This is going to take months. This is going to take some time. 
And I am going to help you. And as time goes by, as I said, 
they realize, we did it. And my response is, no, sir. You did 
it. I am glad I was there to help.
    Chairwoman RADEWAGEN. Okay. Well, I would like to thank 
each of the witnesses for being here today and for the great 
work you do for our country's developing small businesses.
    It is clear that the SBAs entrepreneurial development 
programs are making great strides towards adapting their 
training and counseling programs to reflect small businesses' 
increased reliance on technology.
    This Committee recognizes the challenges that each of your 
programs face and applauds your continued efforts to offer your 
clients with the resources they need to be successful.
    Now I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered. We are adjourned.
    [Whereupon, at 11:09 a.m., the subcommittee was adjourned.]

                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Testimony of Marsha Bailey: Tech Talks: How SBA 
Entrepreneurial Development Programs Have Evolved with 
Technology

    Good morning. Chairwoman Radewagen, Ranking Member Lawson, 
and distinguished Members of the Subcommittee, thank you for 
the opportunity to testify before you today. My name is Marsha 
Bailey, and I am Chair of the Association of Women's Business 
Centers as well as the founder, president and CEO of Women's 
Economic Ventures, a women's business center located in 
California.

    The Association of Women's Business Centers (AWBC) supports 
the national network of Women's Business Centers (WBCs) like 
mine by providing mentoring, programming, and advocacy with the 
goal of improving services to women entrepreneurs. It is 
fortunate we hold this hearing today as AWBC is currently 
convening its 2017 Leadership Conference here in Washington--an 
annual opportunity to share best practices and strengthen the 
WBC program.

    As you know, the WBC program is a public-private 
partnership with more than 25 years of success in providing 
training, counseling, mentoring, and access to capital to women 
entrepreneurs across the country. Our network reaches into 
communities--urban and rural alike--to assist America's job 
creators in launching and growing their own businesses.

    Centers like Women's Economic Ventures (WEV) are focused on 
being an effective and efficient resource for one of the 
fastest growing sectors of the economy. The program's 
collective efforts leave an enormous footprint of successful 
business owners and job creators. In fiscal year 2016, our 
centers reached more than 145,000 clients and conducted over 
93,000 hours of counseling and over 15,000 training sessions in 
over 35 languages. This translated into more than 17,000 new 
businesses.\1\ In 2015, the most recent data available, WBCs 
assisted with nearly $429 million in private capital infusion 
and last year helped to secure nearly $40 million in government 
contracts for women-owned businesses, ultimately creating 
nearly 25,000 jobs.\2\
---------------------------------------------------------------------------
    \1\ Fiscal year 2016 data provided to AWBC on request by SBA and to 
be formally published in the FY18 Budget Justification to Congress. 
Language details found in SBA OED 2015 Report, p. 36 (see footnote 2).
    \2\ US Small Business Administration. Office of Entrepreneurial 
Development 2015 Year in Review, p. 39. Available online at https://
www.sba.gov/sites/default/files/resources<INF>--</INF>articles/
2015<INF>--</INF>OED<INF>--</INF>Year<INF>--</INF>In<INF>--</INF>Review.
pdf. Hereafter SBA OED 2015 Report. Federal contracting data provided 
by SBA via Entrepreneurial Development Management Information System 
(EDMIS).

    While not the focus of today's testimony, AWBC and center 
directors across the country applaud this Committee for 
advancing legislation modernizing the WBC program and for your 
---------------------------------------------------------------------------
continued support of federal funding for women entrepreneurs.

    Today's topic is a timely one. As technology has 
proliferated over the decades, WBCs have worked to leverage 
these advancements to expand our reach and ensure our 
entrepreneurs are prepared for a 21st century economy. In that 
sense, the dedicated staff at WBCs view technology in three 
ways: we use technology to enhance our trainings and reach into 
the community, we educate entrepreneurs on how to leverage 
technology in conjunction with their business plans, and 
finally, we use technology administratively to operate more 
efficiently and collect client data to measure our impact and 
effectiveness.

    I will use the rest of my time today to talk about how some 
of our centers across the country have used evolving technology 
to the benefit of entrepreneurs. I cannot overstate, however, 
the importance of in-person, people-to-people interactions in 
the context of training and counseling. We have found that 
clients overwhelmingly prefer in-person training because of the 
accountability, camaraderie, and support systems that are 
created in the classroom. In one of WEV's own programs, Thrive 
in Five, we ensure that consulting begins in-person to 
establish a relationship that will be critical to an open 
dialogue about strengthening the business.

    Nonetheless, advancements in technology have allowed our 
training and counseling programs to evolve and to reach those 
that may not otherwise be able to utilize our in-person 
services. Given the limitations in the size of the program due 
to funding constraints, some clients of WBCs lie several 
hundred miles away from their nearest women's business center. 
This is where technology such as webinars allow us to provide 
our services to many more individuals than in the past. 
Technology allowing for distance-learning fills a gap in needs 
in rural areas in particular, where in-person services are 
simply not an option. Consulting clients who meet with a 
business advisor regularly through WEV's long-term Thrive in 
Five program, may use tools such as Skype to meet with their 
advisor once the relationship has been established. Some WBCs 
have established computer labs, both stationary and mobile, 
which are particularly important for rural areas where access 
to broadband is not always available. One example of this is 
REI Women's Business Center in Oklahoma, which uses a mobile 
computer laboratory to provide QuickBooks training to clients 
across the state.

    Not only do WBCs use technology to reach rural clients and 
for teaching and training purposes, but we also spend a good 
amount of time teaching the use of technology to our clients. A 
basic example is WEV's partnership with other local adult 
education and job training programs to help clients improve 
their computer skills. There are so many tools out there to 
help small business owners and it is the job of WBCs to bring 
those to the attention of local entrepreneurs and to help train 
them in the use of those tools.

    WEV uses a proprietary curriculum for our business training 
program which is revised every two years. We continue to update 
training content related to technology, e.g. the critical 
importance of having a website, social media presence, online 
sales (when relevant) and payment systems, point of sales and 
customer relationship management tools. Our consulting program 
for existing businesses requires clients to use a bookkeeping 
system such as QuickBooks so that financial reports can be 
reviewed regularly by business advisors.

    Many WBCs, use off-the-shelf products such as LivePlan 
online business planning software, DreamBuilder, CoreFour, 
Kauffman FastTrac, and FDIC's MoneySmart curriculum. WEV is 
considering Palo Alto software's LivePlan as a complement to 
our curriculum and commercial products are updated regularly to 
reflect the latest advancements in technology.

    Notably, WBC clients represent a broad socio-economic 
spectrum. Some of them don't have computers at home or email 
addresses. A few years ago, WEV required all clients to have 
email addresses and we integrated assignments into our 
curriculum that required participants to go online to complete 
assignments. We have also created online study/support groups 
through Facebook. We use our own Facebook account to promote 
client business openings, milestones, and events.

    At the national level, AWBC has a partnership with Intuit, 
which provides access to QuickBooks training and software 
through WBCs. Similarly, AWBC partnered with email service 
Constant Contact, which provides free bulk email services to 
WBCs. AWBC also has a partnership with MasterCard to help 
provide business owners with the knowledge to choose and 
negotiate the best technology options for accepting credit 
cards through their ``Master Your Card'' webinar series.

    Both through our association and at individual centers like 
my own, these partnerships are critical ways to adopt the 
latest technology into our curricula. Our adoption of 
technology is also critical for center operations. Technology 
allows us to minimize administrative requirements and focus 
energy on training and counseling. Moreover, data collection 
has been simplified allowing the WBC program to quantify its 
impact more accurately than ever.

    Despite all the new technologies to support our internal 
requirements, the paperwork burden on individual centers is 
needlessly exacerbated. AWBC hopes to work with this Committee 
to identify and eliminate unnecessary administrative 
requirements that limit the ability of centers like mine to 
focus on entrepreneurs.

    The advent of the internet, email, and cell phones more 
than a decade ago ensured that all businesses would need to 
change. I am proud to say that WBCs have adopted new technology 
for the betterment of the entrepreneurs that rely on us. The 
use of virtual access to centers, the training of technology to 
benefit business owners, and the internal modernization of our 
administrative systems are three ways the WBC program has 
evolved with technology.

    While these elements are important to the program's past 
and future success, I must stress that the driver of our impact 
is our people. The dedicated and knowledgeable staff at centers 
across the country have assisted business and job creation in 
innumerable ways. Women's Economic Ventures and our national 
advocate, the Association of Women's Business Centers, are 
confident that our continued embrace of technology in 
conjunction with our collective commitment to serve 
entrepreneurs will keep the program thriving for years to come.

    Thank you again for the opportunity to testify today, I am 
pleased to answer any of your questions.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Digital Training and Counseling for SBA Entrepreneurial 
            Development Programs, a VBOC Perspective

    Good morning, I am Brent Peacock. I am the director of the 
Veterans Business Outreach Center serving the state of Florida 
which has one of the largest concentration of military bases 
and veterans in the US. The Veterans Business Outreach Center 
or V-BOC is the Small Business Administrations program that 
provides business training, counseling and SBA resource partner 
referrals to active duty service members, National Guard & 
Reserve personnel, veterans, and military spouses interested in 
starting or growing a small business. The SBA funds 20 V-BOCs 
centers across the US and in Hawaii. We certainly appreciate 
Representative Al Lawson's invitation today to introduce you to 
the V-BOC's mission and how we use technology to educate our 
core clients in the basics and best practice of business 
ownership to help them succeed in today's business environment.

    VBOCs primary mission is to conduct entrepreneurial 
development training dealing specifically with the key issues 
of self-employment, meaning owning and succeeding in a business 
of their own. Usually service members meet the VBOC during 
their transition from the military service in a training 
program called Boot to Business. This is a two-day training 
workshop to introduce our target audience--transitioning 
military, spouses and veterans--to the idea of 
entrepreneurship.

    Our second core mission is business counseling. Our 
business counselors and SBA resource partners including Small 
Business Development Centers, SCORE volunteer mentors, and 
Women's Business Centers help our clients in assessing their 
entrepreneurial needs and requirements. We help them validate 
their business concept through extensive market research, 
develop a viable business plan using a variety of online tools 
and SBA resources, help them prepare business loan packages, as 
needed, and connect them with the outside resources like 
lenders to launch and grow a business of their own in the 
civilian world.

    Research is an essential element of this process and VBOC's 
provide more than just industry specific data. Our clients are 
very often high tech warriors. They are familiar with state of 
the art technology, weapons systems and the like. What they 
don't know is how to deploy their skills in the civilian 
business arena. Their business concept may use what they know 
from their military service. But oftentimes, service members 
choose to go in a completely unrelated field, turning their 
swords to proverbial plowshares. No matter what their choice, 
VBOC's are there to guide them through the entrepreneurial 
maze. From understanding their ownership options--direct 
ownership or a franchise, to understanding who their customers 
will be, what options they have in organizing and running their 
business, getting funded, and becoming operational and 
competitive and cash flow positive, this is our mission.

    Your interest is in the role technology and online business 
tools play in today's small business arena. For us, it begins 
with our delivery of training and business counseling. VBOC's, 
working with other SBA resource partners, can target 
entrepreneurial training projects and counseling sessions 
tailored specifically to address the needs and concerns of the 
veteran entrepreneur with a wealth of online tools. VBOCs help 
our clients with feasibility studies, business plan 
assessments, reviews of financial statements, and assisting 
with strategic development such as identifying new markets. 
From franchising to Internet marketing, from electronic sales 
with Square and small business record-keeping like QuickBooks, 
to the nuances of international trade and government 
contracting, all of these resources are now online tools we can 
use every day to help your constituents and our clients. Not 
that long ago, we were limited to face-to-face meetings and 
hard cover books. Thanks to the rapid pace of technology and 
online learning, we can Skype, use webinars, and employ online 
resources to help dozens of clients in a day. Technology has 
made a significant impact on our productivity and effectiveness 
as a government funded entity.

    The SBA's Office of Veterans Business Development maintains 
a webpage that allows us, the VBOC and other instructors the 
ability to access Boots to Business instructor tools and 
training videos online to stay current with ever-changing 
materials and resources. The Boots to Business curriculum is 
also offered online for attendees. They can download the 
materials before attending class or revisit the materials 
whenever they wish after class.

    For deployed service members who do not have access to a 
military installation offering transition programs, the 
Department of Defense (DoD) provides the Joint Knowledge Online 
resource, J-KO for short, for continuous, career-long 
development of joint knowledge and readiness for military 
personnel, including Combatant Commands and Combat Support 
Agencies abroad. Without online training, these service members 
might be left behind.

    Websites are a critical, no-cost resource for our civilians 
and military clients. SBA.gov is an outstanding website and 
learning tool. It's a wealth of information on all aspects of 
business from start to growth, that is well organized and easy 
to understand. Its Learning Center has over 50 topics that 
anyone can view whenever and as often as they like. For active 
duty personnel and busy aspiring entrepreneurs, this 
flexibility is critical. Think of the troops deployed abroad 
with ambitions of entrepreneurship when they turn home, like 
Vil who when she returns from Afghanistan will open that coffee 
shop and bakery, and spouses like Torrance who are keeping the 
home fires burning and running a home-based business of their 
own. Both need online tools like the SBA website and ours, 
VBOC.org, for resources whenever and wherever they want to 
access them. Our Florida Start-up Checklist is a step by step 
guide on our website for aspiring entrepreneurs in my home 
state of Florida, a Microsoft Word document with live links to 
the websites every business owner will need to get their 
business off the ground, from the IRS to website domain names 
to the Secretary of State's offices and to local resources. 
Having these electronic resources not only helps your 
constituents, it saves operational costs to our organizations. 
In the past, we would have spent valuable funds on printing and 
mailing. Now we can ``force multiply'' with a website at with 
greater reach at minimal expense to the tax payers!

    Market research is critical in assessing the feasibility of 
one's idea and in creating a viable business plan. The days of 
pouring over books in the library are long gone. Today's 
warriors expect to access data from their smart phone and 
tablets, untethered from the restraint of library research and 
outdated intel. The use of data from the U.S. Census, the SBA's 
Size-Up Tool and online business plan development tools, both 
commercial and on SBA resource partner websites are valuable 
technological research methods. Bryan, former Army and now 
military spouse, is launching an online business. His is a 
cutting-edge platform but he still needs that data to 
understand and identify his market, locate and cultivate key 
resources and partners before he spends a lot of money. All 
this intel was readily available at no cost through our office, 
SBA resources and the public library which itself is riding the 
wave of electronic research tools like Reference USA.

    Like many small business, government agencies, from the 
local to the federal level, use technology to manage 
operations, tracks activities, and use this data to expand its 
reach and increase its efficacy. Our organization uses an 
electronic client management system called Neoserra. Through 
this client management and performance system, we can track our 
interactions and communication with our clients, set 
performance goals, scheduling, and sign up for training events. 
Using the private sector's best practices, the V-BOC network 
has just implemented Salesforce, a powerful CRM or Customer 
Relationship Management system to schedule training events, 
register and communicate with clients, and input data about 
attendance and post-training contact.

    In V-BOC 2.0's Initiative by the SBA's Office of Veterans 
Business Development, we will pilot two business plan online 
platforms, LivePlan & GrowthWheel. The goal is to facilitate 
the flow of information and track the assistance a client may 
receive from multiple SBA resources. Not only will we be able 
to counsel clients remotely in real time, we can share, co-
counsel and track clients with other SBA Resource Partners like 
SCORE, Small Business Development Centers, and Women's Business 
Centers. For example, if a client was referred by a V-BOC to a 
Women's Business Center, these platforms will allow us to track 
that referral and work together seamlessly to help our client. 
Then, if the same client was referred to a lender, and that 
referral resulted in the client receiving a business loan, 
we'll be able to track that outcome too.

    Lastly, social media platforms have become an essential 
means of communicating and delivering information at any time 
to our increasingly tech savvy clientele. Of course, our 
websites are a repository of news and information. But we also 
take advantage of the power of Facebook and Twitter. The SBA 
and the Office of Veterans Business Development (OVBD) are 
active on both platforms. The OVBD uses Facebook to promote 
both national and local events, and cast a spotlight on veteran 
entrepreneurs with its Success Stories blog. Many V-BOCs use 
email platforms like Constant Contact, to maintain 
communication with our widespread clientele.

    I could continue but you understand how important 
technology and online communication has become and how 
essential it is for elected officials like you and government 
agencies like ours to embrace it and use it to its fullest 
potential in service to our constituents.

    Information and business now move at the speed of light 
because of the technology our nation has helped pioneer and 
that our service men and women have contributed to in years 
past, today and in the future, both as warriors and as 
entrepreneurs. I thank you for this opportunity, and welcome 
any questions.

    Submitted, 12 September 2017

          Brenton Peacock, Director

          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb899b8e8a88848880abbda9a4a8c584998c">[email&#160;protected]</a>

          Florida's Veterans Business Outreach Center

          www.VBOC.org

          5230 W Hwy 98

          Panama City, FL 32401

          (800) 542-7232

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
